No. __________________

IN THE
SUPREME COURT OF THE UNITED STATES

DAVID STILES, JR. – PETITIONER
vs.
STATE OF TEXAS – RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF APPEALS OF TEXAS, FOURTEENTH DISTRICT, HOUSTON

PETITION FOR WRIT OF CERTIORARI

Michael C. Gross,
Counsel of Record
1524 North Alamo Street
San Antonio, Texas 78215
(210) 354-1919
(210) 354-1920 Fax

QUESTIONS PRESENTED

This Court held in Barker v. Wingo, 407 U.S. 514 (1972) that a speedy trial
analysis is triggered by a delay of eight months. This Court held in Doggett v. United
States, 505 U.S. 647 (1992) that if the government’s negligence causes an excess
delay six times longer than the eight months required to trigger a speedy trial analysis,
and the presumption of prejudice is neither extenuated nor persuasively rebutted, the
defendant is entitled to relief.
The court below was confronted with a delay of four years and five months
(more than six times longer than the eight months required to trigger a speedy trial
analysis) between arrest and trial, yet the court below held that the Appellant was
required to demonstrate prejudice rather than the government rebut the prejudice
presumption. This holding leads to the question of whether a defendant is required
to demonstrate prejudice on a speedy trial claim involving a presumptively prejudicial
delay of four years and five months between arrest and trial? How much delay is
excess delay under Doggett which then requires the government to rebut the prejudice
presumption?

ii

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

iii

TABLE OF CONTENTS
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED. . . . . . . . 1
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION.. . . . . . . . . . . . . . . . . . . . . . . . . . . 4
THE COURT OF APPEALS OF TEXAS, FOURTEENTH
DISTRICT, HOUSTON, HAS ENTERED A DECISION
IN CONFLICT WITH THIS COURT.
THE COURT OF APPEALS OF TEXAS, FOURTEENTH
DISTRICT, HOUSTON, HAS DECIDED AN
IMPORTANT FEDERAL QUESTION IN A WAY THAT
CONFLICTS WITH THE DECISION OF ANOTHER
STATE COURT OF LAST RESORT OR OF A UNITED
STATES COURT OF APPEALS.
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
INDEX TO APPENDICES
APPENDIX A

Decision of Court of Appeals of Texas, Fourteenth District,
Houston

APPENDIX B

Judgment of 424th Judicial District Court, Burnet County, Texas

APPENDIX C

Decision of Texas Court of Criminal Appeals denying review

iv

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Barker v. Wingo, 407 U.S. 514,
92 S.Ct. 2182, 33 L.Ed.2d 101 (1972) .. . . . . . . . . . . . . . . . . . . . 4, 5, 6, 7, 11
Doggett v. United States, 505 U.S. 647,
112 S.Ct. 2686, 120 L.Ed.2d 520 (1992) .. . . . . . . . . . . . . . . 5, 6, 7, 8, 12, 13
Klopfer v. North Carolina, 386 U.S. 213,
87 S.Ct. 988, 18 L.Ed.2d 1 (1967). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 13
Knox v. State, 934 S.W.2d 678
(Tex. Crim. App. 1996).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Moore v. Arizona, 414 U.S. 25,
94 S.Ct. 188, 38 L.Ed.2d 183 (1973) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
State v. Garza, 146 N.M. 499
(N.M. 2019).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
State v. Thomas, 54 So.3d 1
(La. App. 4 Cir. 2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Stiles v. State, 596 S.W.3d 361
(Tex. App. - Houston [14th Dist.] 2019, pet. ref’d). . . . . . . . . . . . . . . . 1, 2, 6
United States v. Beamon, 992 F.2d 1009
(9th Cir. 1993). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
United States v. Bergfeld, 280 F.3d 486
(5th Cir. 2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Brown, 325 F.3d 1032 (8th Cir.), cert. denied,
539 U.S. 953, 123 S.Ct. 2632, 156 L.Ed.2d 647 (2003). . . . . . . . . . . . . . . . 8

v

United States v. Cardona, 302 F.3d 494
(5th Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Heshelman, 521 Fed. Appx. 501
(6th Cir. 2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Marion, 404 U.S. 307,
92 S.Ct. 455, 30 L.Ed.2d 468 (1971). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. McCoy, 786 F.Supp.2d 1216
(S.D. Tex. 2011). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Molina-Solorio, 577 F.3d 300
(5th Cir. 2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Zamorano v. State, 84 S.W.3d 643
(Tex. Crim. App. 2002).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATUTES AND RULES
28 U.S.C. § 1257. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
U.S. Const. Amend. VI. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 3, 4, 6, 8, 9, 10, 13

vi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
The opinion of the Court of Appeals of Texas, Fourteenth District, Houston,
appears at Appendix A to the petition and is published at Stiles v. State, 596 S.W.3d
361 (Tex. App. - Houston [14th Dist.] 2019, pet. ref’d). The judgment of the 424th
Judicial District Court, Burnet County, Texas appears at Appendix B to the petition
and is unpublished. The decision of the Texas Court of Criminal Appeals denying
review appears at Appendix C to the petition and is unpublished.
JURISDICTION
The date on which the Texas Court of Criminal Appeals denied review on this
case was August 19, 2020. A copy of that decision appears at Appendix C. A petition
for rehearing was not filed. The jurisdiction of this court is invoked pursuant to 28
U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the Constitution of the United States provides, “In
all criminal prosecutions, the accused shall enjoy the right to a speedy and public
1

trial, by an impartial jury of the State and district wherein the crime shall have been
committed, which district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defense.”
STATEMENT OF THE CASE
The Appellant was indicted for sexual assault. (T - 4-5).1 The Appellant
pleaded not guilty and the jury found the Appellant guilty of sexual assault and
sentenced the Appellant to imprisonment for ten years, with community supervision
for seven years on imprisonment only, and a $10,000.00 fine. Id. at 60-61. A motion
for new trial was filed and, without a hearing, denied by operation of law. Id. at 81.
Notice of appeal was filed. Id. at 77. The published opinion of the Fourteenth Court
of Appeals was dated December 31, 2019. Stiles v. State, supra. After the granting
of an extension of time, a motion for rehearing was timely filed on March 1, 2020 and
was denied on March 12, 2020. The Texas Court of Criminal Appeals denied review
on August 19, 2020.
The indictment alleged the date of offense as October 22, 2011. (T - 4). The
indictment was not returned until April 4, 2017. Id. The Appellant filed a speedy trial

1

The clerk’s record will be referred to as “T and page number.” The court reporter’s
record of trial and sentencing will be referred to as “R and volume and page number.”
2

motion on May 7, 2018, which was two weeks prior to trial. Id. at 16-18. In the
speedy trial motion, the Appellant stated that: (1) the alleged offense was reported to
the Burnet County Sheriff’s Office on October 22, 2011; (2) an arrest warrant for the
Appellant was not issued until October 28, 2013; (3) the Appellant was not arrested
until December 17, 2013; (4) this case was previously set for trial one time on March
5, 2018, and was continued at the request of the prosecution; (5) no satisfactory
reason existed for the delay in bringing this case to trial; (6) the Appellant never
waived his speedy trial right; and (7) the Appellant had suffered harm as a result of
the delay in the form of oppressive pretrial incarceration and substantial anxiety and
concern while on bond pending trial. Id. The motion stated that the indictment should
be dismissed because this pretrial delay violated, in part, the Appellant’s Sixth
Amendment right to a speedy trial. Id.
A pretrial hearing was held on May 14, 2018. (R - v.2 - 1). During this hearing,
the Appellant informed the trial judge that the speedy trial motion had been filed. Id.
at 6. The prosecution informed the trial judge that the prosecution was not prepared
to litigate the speedy trial motion during this hearing. Id. The trial judge ordered that
the speedy trial motion would be heard the day of jury selection. Id.
A pretrial hearing was held on May 21, 2018 – the day of jury selection. (R v.3 - 1). Law enforcement first became aware of the allegations against the Appellant
3

in this case on October 22, 2011. Id. at 29. Law enforcement were aware of the
Appellant’s address at this time. Id. at 36. The Appellant was not arrested for the
charges in this case until over two years’ later on December 17, 2013. Id. at 29-30.
The prosecutor did not instruct law enforcement to obtain a search warrant for the
Appellant’s DNA until September 2014. Id. at 44-45. The Appellant’s DNA sample
was not obtained pursuant to a search warrant until November 3, 2014. Id. at 34-35.
The Appellant’s DNA sample and the complainant’s clothing were not submitted to
a lab until after this date. Id. at 35. The final lab report was received on November 8,
2016. Id. at 31. The indictment was returned on April 4, 2017. Id. at 49. The
prosecution filed on February 28, 2018, a motion for continuance of an earlier trial
date. Id. The trial judge denied the speedy trial motion. Id. at 59.
REASONS FOR GRANTING THE PETITION
The court of appeals has entered a decision in conflict with this Court and has
decided an important federal question in a way that conflicts with the decision of
another state court of last resort or of a United States court of appeals. The Sixth
Amendment guarantees the right to a speedy trial. A Barker v. Wingo, 407 U.S. 514,
92 S.Ct. 2182, 33 L.Ed.2d 101 (1972) speedy trial analysis is triggered by a delay of
eight months to a year. Zamorano v. State, 84 S.W.3d 643 (Tex. Crim. App. 2002);
Knox v. State, 934 S.W.2d 678 (Tex. Crim. App. 1996). When pretrial delay reaches
five years, the fourth Barker factor – prejudice – is presumed and need not be proved
4

by the defendant. In United States v. Molina-Solorio, 577 F.3d 300 (5th Cir. 2009),
the court held that if the first three Barker factors do not weigh against the defendant,
a court may conclude those factors warrant a presumption of prejudice, and the
defendant is relieved of the burden of demonstrating actual prejudice. Id.; see also
United States v. Cardona, 302 F.3d 494 (5th Cir. 2002) (delay of 5-1/2 years;
prejudice presumed; indictment dismissed). In fact, the presumption of prejudice
“intensifies over time,” and an eight-year delay is “extraordinary.” Doggett v. United
States, 505 U.S. 647, 112 S.Ct. 2686, 120 L.Ed.2d 520 (1992) (delay of 8 years is
“extraordinary;” prejudice presumed; indictment dismissed).
A five-year delay caused by official negligence entitled a defendant to a
presumption of prejudice and finding of a speedy trial violation without the need to
demonstrate prejudice under the fourth Barker factor. United States v. Bergfeld, 280
F.3d 486 (5th Cir. 2002). A three-year delay has also resulted in a speedy trial
violation without the need to demonstrate prejudice under the fourth Barker factor
because the prosecution must rebut the presumption. United States v. Heshelman, 521
Fed. Appx. 501 (6th Cir. 2013); United States v. McCoy, 786 F.Supp.2d 1216 (S.D.
Tex. 2011). What about a delay of four years and five months as in the case at bar?
In finding no violation of the right to a speedy trial after a “delay of four years
and five months between arrest and trial,” the court below held that, “Though the
5

delay is considered presumptively prejudicial to the defense, appellant failed to
demonstrate any prejudice.” Stiles v. State, supra. Contrary to this holding, this Court
has held that an 8½ year delay between indictment and arrest was presumptively
prejudicial and violated the defendant’s right to a speedy trial even though the
defendant failed to demonstrate particular prejudice. Doggett v. United States, supra.
Regarding this length of delay, this Court stated:
. . . the Government claims Doggett has failed to make any
affirmative showing that the delay weakened his ability to
raise specific defenses, elicit specific testimony, or produce
specific items of evidence. Though Doggett did indeed
come up short in this respect, the Government's argument
takes it only so far: consideration of prejudice is not
limited to the specifically demonstrable, and, as it
concedes, [citation omitted], affirmative proof of
particularized prejudice is not essential to every speedy
trial claim. [citation omitted]. Barker explicitly recognized
that impairment of one’s defense is the most difficult form
of speedy trial prejudice to prove because time’s erosion of
exculpatory evidence and testimony “can rarely be shown.”
407 U.S. at 532. And though time can tilt the case against
either side, see id., at 521; [citation omitted], one cannot
generally be sure which of them it has prejudiced more
severely. Thus, we generally have to recognize that
excessive delay presumptively compromises the reliability
of a trial in ways that neither party can prove or, for that
matter, identify. While such presumptive prejudice cannot
alone carry a Sixth Amendment claim without regard to the
other Barker criteria, [citation omitted], at 315, it is part of
the mix of relevant facts, and its importance increases with
the length of delay.
Id.
6

This Court then determined what “role that presumptive prejudice should play
in the disposition of Doggett’s speedy trial claim.” Id. This Court stated, “Between
diligent prosecution and bad-faith delay, official negligence in bringing an accused
to trial occupies the middle ground. While not compelling relief in every case where
bad-faith delay would make relief virtually automatic, neither is negligence
automatically tolerable simply because the accused cannot demonstrate exactly how
it has prejudiced him.” Id. This Court then stated:
The portion of the delay attributable to the Government’s
negligence far exceeds the threshold needed to state a
speedy trial claim; indeed, we have called shorter delays
“extraordinary.” See Barker, supra, at 533. When the
Government’s negligence thus causes delay six times as
long as that generally sufficient to trigger judicial review,
see n.1, supra, and when the presumption of prejudice,
albeit unspecified, is neither extenuated, as by the
defendant’s acquiescence, e.g., 407 U.S. at 534-536, nor
persuasively rebutted, the defendant is entitled to relief.
Id.
Doggett clarified that when government negligence causes a delay in excess
of 48 months in cases where the presumption of prejudice is neither extenuated nor
persuasively rebutted by the government, speedy trial relief should be granted. Courts
in such delay cases, however, have continued to place the burden on the defendant
to prove prejudice rather than require the government to rebut the prejudice
presumption. A common question is how much delay is excess delay under Doggett
7

which then requires the government to rebut the prejudice presumption? The Fourth
Circuit Court of Appeal of Louisiana considered a case involving a delay of almost
nine years. State v. Thomas, 54 So.3d 1 (La. App. 4 Cir. 2010). The dissent
recognized that the Thomas case presented a stronger case for prejudice than was
recognized in Doggett. Id. (Belsome, J., dissenting). The majority opinion, however,
found that the appellant failed to prove prejudice. Id. at 36. The majority opinion did
not make mention that the government must rebut the presumption of prejudice. Id.
In State v. Garza, 146 N.M. 499 (N.M. 2019), the court was confronted with
a 10-month and six-day delay which was presumptively prejudicial, but the court
ruled that the defendant failed to show prejudice. In United States v. Brown, 325 F.3d
1032 (8th Cir.), cert. denied, 539 U.S. 953, 123 S.Ct. 2632, 156 L.Ed.2d 647 (2003),
the court was confronted with a 3-year delay which was presumptively prejudicial,
but the court ruled that the defendant was required to prove prejudice and stated the
defendant “must show the delay actually prejudiced him to prevail on his Sixth
Amendment claim.” In United States v. Beamon, 992 F.2d 1009 (9th Cir. 1993), a 20month delay was held to not have relieved the defendants of showing actual
prejudice.
In the case at bar, the State at the speedy trial hearing failed to rebut the
presumption of prejudice and offered no tenable reason for the delay. Additionally,
8

there was no evidence the Appellant acquiesced to the delay. The indictment alleged
the date of offense as October 22, 2011. (T - 4). The indictment was not returned until
April 4, 2017. Id. The Appellant filed a speedy trial motion on May 7, 2018, which
was two weeks prior to trial. Id. at 16-18. In the speedy trial motion, the Appellant
stated that: (1) the alleged offense was reported to the Burnet County Sheriff’s Office
on October 22, 2011; (2) an arrest warrant for the Appellant was not issued until
October 28, 2013; (3) the Appellant was not arrested until December 17, 2013; (4)
this case was previously set for trial one time on March 5, 2018, and was continued
at the request of the prosecution; (5) no satisfactory reason existed for the delay in
bringing this case to trial; (6) the Appellant never waived his speedy trial right; and
(7) the Appellant had suffered harm as a result of the delay in the form of oppressive
pretrial incarceration and substantial anxiety and concern while on bond pending trial.
Id. The motion stated that the indictment should be dismissed because this pretrial
delay violated, in part, the Appellant’s Sixth Amendment right to a speedy trial. Id.
A pretrial hearing was held on May 14, 2018. (R - v.2 - 1). During this hearing,
the Appellant informed the trial judge that the speedy trial motion had been filed. Id.
at 6. The prosecution informed the trial judge that the prosecution was not prepared
to litigate the speedy trial motion during this hearing. Id. The trial judge ordered that
the speedy trial motion would be heard the day of jury selection. Id.
9

A pretrial hearing was held on May 21, 2018 – the day of jury selection. (R v.3 - 1). Law enforcement first became aware of the allegations against the Appellant
in this case on October 22, 2011. Id. at 29. Law enforcement were aware of the
Appellant’s address at this time. Id. at 36. The Appellant was not arrested for the
charges in this case until over two years’ later on December 17, 2013. Id. at 29-30.
The prosecutor did not instruct law enforcement to obtain a search warrant for the
Appellant’s DNA until September 2014. Id. at 44-45. The Appellant’s DNA sample
was not obtained pursuant to a search warrant until November 3, 2014. Id. at 34-35.
The Appellant’s DNA sample and the complainant’s clothing were not submitted to
a lab until after this date. Id. at 35. The final lab report was received on November 8,
2016. Id. at 31. The indictment was returned on April 4, 2017. Id. 49. The prosecution
filed on February 28, 2018, a motion for continuance of an earlier trial date. Id. The
trial judge denied the speedy trial motion. Id. at 59.
The Sixth Amendment speedy trial right applies once a person becomes an
“accused.” United States v. Marion, 404 U.S. 307, 92 S.Ct. 455, 30 L.Ed.2d 468
(1971). A person becomes an “accused” once there is an arrest. Id. Regarding an
arrest, this Court stated:
Arrest is a public act that may seriously interfere with the
defendant’s liberty, whether he is free on bail or not, and
that may disrupt his employment, drain his financial
10

resources, curtail his associations, subject him to public
obloquy, and create anxiety in him, his family, and his
friends.
Id.
This Court in 1967 stated as follows regarding the anxiety and other factors on
a citizen arrested for an offense:
The petitioner is not relieved of the limitations placed upon
his liberty by this prosecution merely because its
suspension permits him to go “whithersoever he will.” The
pendency of the indictment may subject him to public
scorn and deprive him of employment, and almost certainly
will force curtailment of his speech, associations and
participation in unpopular causes. By indefinitely
prolonging this oppression, as well as the “anxiety and
concern accompanying public accusation,” the criminal
procedure condoned in this case … clearly denies the
petitioner the right to a speedy trial . . .
Klopfer v. North Carolina, 386 U.S. 213, 87 S.Ct. 988, 18 L.Ed.2d 1 (1967).
A demand for a speedy trial is not a necessary condition to the consideration
of the speedy trial right. Barker v. Wingo, supra. “Such an approach, by presuming
waiver of a fundamental right from inaction, is inconsistent with this Court’s
pronouncements on waiver of constitutional rights.” Id. “Courts should ‘indulge every
reasonable presumption against waiver’ . . . and they should ‘not presume
acquiescence in the loss of fundamental rights.’” Id. A presumption against waiver
with respect to the speedy trial right is appropriate given that a delay in a speedy trial
11

after a person is arrested and released on bail results in such a person being “unable
to lead a normal life because of community suspicion and his own anxiety.” Id.
The Appellant had argued that the facts of this case constitute “some showing”
that the delay has been prejudicial. See Moore v. Arizona, 414 U.S. 25, 94 S.Ct. 188,
38 L.Ed.2d 183 (1973) (affirmative demonstration of prejudice not required). The
delay between the Appellant’s arrest and his indictment and later trial was solely
attributable to the State. The Appellant is entitled to relief because the presumption
of prejudice was neither extenuated by acquiescence nor persuasively rebutted by the
State at the hearing. See Doggett, supra, 505 U.S. 647, 651. There is no evidence in
the record that the Appellant ever requested a continuance, yet the State admitted at
the hearing that the State had previously requested a continuance. (R - v.3 - 49).
Affirmative proof of particularized prejudice is not essential to the Appellant’s
speedy trial claim, and the State’s negligence is not automatically tolerable simply
because the Appellant cannot demonstrate exactly how it has prejudiced him. See
Doggett.
The unexplained delay by the State tilts this case against the State especially
because the Appellant, not the State, has been prejudiced more severely. The
indictment for rape certainly subjected the Appellant to anxiety and concern
accompanying public accusation and public scorn and almost certainly forced
12

curtailment of his speech and associations. See Klopfer v. North Carolina, supra. The
State clearly failed during the hearing to persuasively rebut the presumption of
prejudice in this case. The Appellant’s right to a speedy trial was violated.
The State offered no tenable reason for the delay, and negligence is not a
tenable justification. The Appellant moved to dismiss the indictment, which brought
his speedy trial claim to the attention of the trial judge and the State. There is no
evidence that the Appellant was taking advantage of the delay. The delay in this case
and the negligence by the State in handling this case resulted in prejudice to the
Appellant. Given the lack of arrest until two years after the accusation by the
complainant to law enforcement, the Appellant was unable to prepare his defense for
two years. The State’s action in the case at bar deprived the Appellant of his Sixth
Amendment right to a speedy trial.
The Appellant has shown a violation of his Sixth Amendment right to a speedy
trial. Given the length of delay in this case and the holding of this Court in Doggett
that such a delay between indictment and arrest was presumptively prejudicial and
violated Doggett’s right to a speedy trial even though Doggett failed to demonstrate
particular prejudice, the court below incorrectly held that there was no speedy trial
violation because the Appellant failed to demonstrate any prejudice – prejudice
should have been presumed. The problem was that the court below did not require the
13

state to rebut the presumption of prejudice. This action by the court below stems from
a confusion among the courts, both state and federal, as to what amount of delay is
excessive thereby requiring the government to rebut the prejudice prong as opposed
to requiring the defendant to prove the prejudice prong. This Court should settle this
dispute among the courts.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

Michael C. Gross
Counsel of Record
1524 North Alamo Street
San Antonio, Texas 78215
(210) 354-1919

